FILED

UNITED STATES COURT OF APPEALS

IAY 7 2020
If

FOR THE NINTH CIRCUIT

OLLY C. DWYER, GLERK
U.S. COURT OF APPEALS

MICHAEL R. SPENGLER,
Petitioner-Appellant,
v.

No.

20-55080

D.C. No. 2:19-cv-08259-pOC-SP
Central District of California,
Los Angeles
/
ORDER

ALEX VILLANUEVA,

•>

Respondent-Appel lee.
Before:

M. SMITH and LEE, Circuit Judges.

0

The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2);
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Wilson v. Belleque, 554 F.3d
816, 825-26 (9th Cir. 2009).
Any pending motions are denied as moot.

IH

DENIED.

CierK O S CajrV<^E Appecx^

Op* orpo Uok I^.2^3^
Prrwo'SCO) ca

(Ease 2:19-cv-08259-DOC-SP Document 19 Filed 12/11/19 Page 1 of 3 Page ID #:1488

1
2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

11

MICHAEL R. SPENGLER,

12

Petitioner,

13

v.

14

ALEX VILLANUEVA, Sheriff,

15

Respondent.

Case No. CV 19-8259-DOC (SP)
ORDER DENYING A CERTIFICATE
OF APPEALABILITY

16
17
18

Rule 11 of the Rules Governing Section 2254 Cases in the United States

19 District Courts reads as follows:
20
(a)
Certificate of Appealability. The district court must
21
issue or deny a certificate of appealability when it enters a final order
22
adverse to the applicant. Before entering the final order, the court
23
24

may direct the parties to submit arguments on whether a certificate

25

specific issue or issues that satisfy the showing required by 28 U.S.C.

26
27
28

§ 2253(c)(2). If the court denies a certificate, the parties may not

should issue. If the court issues a certificate, the court must state the

appeal the denial but may seek a certificate from the court of appeals
under Federal Rule of Appellate Procedure 22. A motion to

1

Opase 2:19-cv-08259-DOC-SP Document 19 Filed 12/11/19 Page 2 of 3 Page ID #:1489

1

reconsider a denial does not extend the time to appeal.
(b)

2

Time to Appeal. Federal Rule of Appellate Procedure

3

4(a) governs the time to appeal an order entered under these rules. A

4

timely notice of appeal must be filed even if the district court issues a

5

certificate of appealability.

6
7

Under 28 U.S.C. § 2253(c)(2), a Certificate of Appealability may issue “only

8

if the applicant has made a substantial showing of the denial of a constitutional

9

right.” The Supreme Court has held that this standard means a showing that

10

“reasonable jurists could debate whether (or, for that matter, agree that) the petition

11

should have been resolved in a different manner or that the issues presented were

12

adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529

13

U.S. 473, 483-84, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (internal quotation

14

marks omitted, citation omitted).

15

Two showings are required “[w]hen the district court denies a habeas

16

petition on procedural grounds without reaching the prisoner’s underlying

17

constitutional claim.” Slack, 529 U.S. at 484. In addition to showing that “jurists

18

of reason would find it debatable whether the petition states a valid claim of the

19

denial of a constitutional right,” the petitioner must also make a showing that

20

“jurists of reason would find it debatable whether the district court was correct in

21

its procedural ruling.” Id. As the Supreme Court further explained:

22

Section 2253 mandates that both showings be made before the court

23

of appeals may entertain the appeal. Each component of the § 2253(c)

24

showing is part of a threshold inquiry, and a court may find that it can

25

dispose of the application in a fair and prompt manner if it proceeds

26

first to resolve the issue whose answer is more apparent from the

27

record and arguments.

28 Id. at 485.
2

fase 2:19-cv-08259-DOC-SP Document 19 Filed 12/11/19 Page 3 of 3 Page ID #:149(p

1

Here, the Court has denied the Petition because petitioner’s claim is not

2

cognizable on federal habeas review. After duly considering petitioner’s

3

contentions, the Court finds that petitioner has failed to make the requisite showing

4

that “jurists of reason would find it debatable whether the district court was correct

5

in its procedural ruling” with respect to its findings.

6

Accordingly, a Certificate of Appealability is denied in this case.

7

8

Dated: December 11, 2019

9

/jilt’d
HONORABLE DAVID O. CARTER
UNITED STATES DISTRICT JUDGE

10

11
12

Presented by:

13
14

15
16

Sheri Pym
United States Magistrate Judge

17
18
19
20
21
22
23
24
25
26
27
28
3

CJIase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 1 of 14 Page ID #:147|3

1
2
3
4

5
6
7

8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

MICHAEL R. SPENGLER,

12

Case No. CV 19-8259-DOC (SP)

Petitioner,

13

v.

14

ALEX VILLANUEVA, Sheriff,

15

Respondent.

16

MEMORANDUM AND ORDER
DENYING MOTIONS FOR
PRELIMINARY INJUNCTION AND
TEMPORARY RESTRAINING ORDER,
AND SUMMARILY DISMISSING
PETITION FOR WRIT OF
HABEAS CORPUS

17
18

I.

19

INTRODUCTION

20

On September 24, 2019, petitioner Michael R. Spengler, an inmate at the

21

Twin Towers Correctional Facility (“TTCF”), filed what purports to be a “Pre-

22

Conviction” Petition for Writ of Habeas Corpus (the “Petition”). Petitioner is a

23

pretrial detainee, and challenges the conduct of jail officials and the prosecution,

24

and the rulings of the trial court, in the investigation and prosecution of the state

25

criminal case on which he is awaiting trial. With the Petition, petitioner also filed

26

an “O.S.C. for a Preliminary Injunction” (the “Motion”). (The Petition and Motion

27

were docketed together as a single document.) In the Motion, petitioner seeks a

28
1

qiase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 2 of 14 Page ID #: 14714

1 stay of his state criminal case to allow this Court time to intervene in the state
2 criminal case.
On November 26, 2019, petitioner also filed a Request for a temporary
3
4 restraining order (“TRO”) and supplement to his Motion for a preliminary
5 injunction, in two parts (docket nos. 14, 15). Petitioner again asks the Court to stay
6 his state criminal case, and also to inquire into problems with his receipt of legal

7 mail at TTCF. On December 9, 2019, petitioner filed another Emergency Motion
8 for a TRO and preliminary injunction (docket no. 16), again requesting the Court
9 to stay his state criminal case.
10
For the reasons that follow, the Petition will be summarily dismissed. Most
11 fundamentally, petitioner does not seek relief that is cognizable in a habeas
12 petition, since petitioner is not challenging the legality of his confinement.
13 Moreover, under the Younger Abstention Doctrine, this Court may not intervene in
14 petitioner’s pending state criminal case, as petitioner asks the Court to do. See
15 Younger v. Harris, 401 U.S. 37, 91 S. Ct. 746, 27 L. Ed. 2d 669 (1971).
16 Consequently, petitioner is not entitled to injunctive relief in this case, and the
17 Motion for a preliminary injunction and requests for a TRO therefore will also be
18 denied.
19
20
21

II.
BACKGROUND
This is not petitioner’s first attempt to convince this Court to intervene in his

22

state criminal proceedings. He has done so in numerous other cases, including by

23

way of civil rights complaints (case numbers CV 17-450-DOC (SP), CV 17-3078-

24

DOC (SP), CV 17-4100-DOC (SP), CV 17-6552-DOC (SP), CV 18-97-RGK

25

(JPR), CV 17-2078-DOC (SP)), and in one other habeas petition (case number CV

26

17-884-DOC (SP)). The Court has denied all such efforts, repeatedly finding and

27

advising petitioner that, inter alia, the Court must abstain from interfering with the

28
2

Ctlase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 3 of 14 Page ID #:147|5

1

state criminal case under the Younger Abstention Doctrine.

2

In the instant Petition and Motion, petitioner again seeks this Court’s

3

assistance with his pending state criminal case. He alleges: the prosecution’s re­

4

use of evidence that was used against petitioner’s co-defendant in a previous trial,

5

in which the co-defendant was acquitted, violates his right against double jeopardy

6

since petitioner is being re-tried as an aider and abettor to the acquitted principal;

7

his self-representation has been revoked and the trial court will not hear his

8

Marsden motions challenging his counsel; a jailhouse informant continues to

9

circumvent petitioner’s right to counsel; prosecutorial misconduct in multiple

10 respects; and vindictive prosecution. He asks this Court to stay his state criminal
11

case and intervene to protect his federal rights. Additionally, in his requests for a

12

TRO and preliminary injunction, petitioner again asks the Court to stay his pending

13

state criminal case and inquire into problems with his receipt of legal mail at

14

TTCF.

15

Petitioner here argues, inter alia, he faces irreparable injury because he is

16

being retried in violation of the Double Jeopardy Clause, and as such the Younger

17

Abstention Doctrine is inapplicable. Given this argument, on October 4, 2019, the

18

Court ordered respondent to file a response addressing just the double jeopardy

19

issue and Motion for preliminary injunction. After an extension, respondent filed

20

his initial response on November 15, 2019.

21

III.

22

FACTS OF WHICH THE COURT TAKES JUDICIAL NOTICE

23

On November 15, 2019, in his response to the Court’s October 4, 2019

24

order, respondent requested this Court to take judicial notice of the records from

25

the state criminal proceedings in case numbers KA105957 and BA451330. See

26

Response at 1-2. A fact subject to judicial notice is one that is “not subject to

27

reasonable dispute because it: (1) is generally known within the trial court’s

28
3

C||ase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 4 of 14 Page ID #:147|6

1 territorial jurisdiction; or (2) can be accurately and readily determined from
2 sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b).
3 A court “must take judicial notice if a party requests it and the court is supplied
4 with the necessary information.” Fed. R. Evid. 201(c)(2). Courts ‘“may take
5
6
7
8
9
10

notice of proceedings in other courts, both within and without the federal judicial
system, if those proceedings have a direct relation to matters at issue.’” U.S. ex rel.
Robinson Rancheria Citizens Council v. Borneo, Inc., 971 F.2d 244, 248 (9th Cir.
1992) (citation omitted); see Headwaters Inc. v. U.S. Forest Serv., 399 F.3d 1047,
1051 n.3 (9th Cir. 2005) (taking judicial notice of the docket in a related case;
‘“[mjaterials from a proceeding in another tribunal are appropriate for judicial

11 notice’”) (citation omitted); Holder v. Holder, 305 F.3d 854, 866 (9th Cir. 2002)
12 (taking judicial notice of opinion and briefs filed in another proceeding).
13
The Court here takes judicial notice of the records from the state criminal
14 proceedings that respondent has submitted with his initial response to the Petition,
15 consisting of Los Angeles County Superior Court records, specifically, docket
16 records, minute orders, complaint, information, and trial transcript from case
17 numbers KA105957 and BA451330. See Response, Exs. 1-6. These records
18 reflect the following facts, of which the Court also and specifically takes judicial
19 notice.
20
Petitioner was charged in an information filed on December 17, 2014 in the
21 Los Angeles County Superior Court in case number KA105957 with murder in
22 violation of California Penal Code § 187(a). Response, Ex. 1 at 10. At a
23 preliminary hearing held two weeks prior to the information’s filing, petitioner was
24 held to answer in that case for the murder of Michael Meza. Id. at 7-8. On
25 October 31, 2016, a jury found petitioner not guilty of the crime of first degree
26 murder of Michael Meza, but the jury was unable to reach a verdict on the lesser
27 included offense of second degree murder. Id., Ex. 1 at 41; Ex. 3 at 98-101. The
28
4

qiase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 5 of 14 Page ID #:147]7

1 court declared a mistrial on the second degree murder charge against petitioner.
2 Id., Ex. 1 at 41; Ex. 3 at 101. The jury acquitted petitioner’s co-defendant,
3 Fernando Gonzalez, in the same case of both first and second degree murder. Id.,
4 Ex. 2 at 91; Ex. 3 at 95. On December 2, 2016, the prosecution dismissed case
5 number KA105957 without prejudice over petitioner’s objection. Id., Ex. 1 at 43.
6
7
8
9
10

Meanwhile, petitioner had been charged in case number BA451330 in the
Los Angeles Superior Court with the murder of Marcus Nieto in violation of
California Penal Code § 187(a). See id., Ex. 5 at 113; see also id., Ex. 4 at 108.
That complaint was amended on November 18, 2016 to also charge petitioner with
Meza’s murder. Id., Ex. 4 at 108; Ex. 5 at 114. Petitioner was held to answer on

11 both charges at a preliminary hearing held on December 20, 2017. Id., Ex. 5 at
12 129-30. In the two-count information ultimately filed on January 3, 2018 in case
13 number BA451330, petitioner was charged in count one with the February 16,
14 2013 murder of Marcus Nieto, and in count two with the January 9, 2013 murder
15 of Michael Meza. Id., Ex. 5 at 132; Ex. 6 at 158-60. That case remains pending
16 and is currently set for jury trial on January 13, 2020. Id., Ex. 5 at 156.
17
IV.
18
DISCUSSION
19

Rule 4 of the Rules Governing Section 2254 Cases authorizes the Court to

20
21
22
23

summarily dismiss a habeas petition “[i]f it plainly appears from the petition and
any exhibits annexed to it that the petitioner is not entitled to relief in the district
court.” Rule 4 also authorizes dismissals on procedural grounds. See 28 U.S.C.
foil. § 2254, Rule 4 Advisory Committee Note (1976); White v. Lewis, 874 F.2d

24 599, 602 (9th Cir. 1989). Here, the Petition must be dismissed because, as
25 discussed below, it does not raise a cognizable habeas corpus claim over which this
26 Court has jurisdiction, and because it asks this Court to intervene in a pending state
27 criminal case in contravention of the Younger Abstention Doctrine. For the same
28
5

Cflase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 6 of 14 Page ID #:147|8

1 reasons, the Motion for a preliminary injunction and requests for a temporary
2 restraining order will be denied.
3
4
5
6
7
8
9
10

A.

Petitioner Is Not Entitled to a TRO or Preliminary Injunction
Petitioner here seeks both a TRO and a preliminary injunction. A

preliminary injunction is “an extraordinary and drastic remedy, one that should not
be granted unless the movant, by a clear showing, carries the burden of
persuasion.” Mazurekv. Armstrong, 520 U.S. 968, 972, 117 S. Ct. 1865, 138 L.
Ed. 2d 162 (1997) (per curiam) (internal quotations marks and citation omitted).
The moving party bears the burden to establish that “he is likely to succeed on the
merits, that he is likely to suffer irreparable harm in the absence of preliminary

11 relief, that the balance of equities tips in his favor, and that an injunction is in the
12 public interest.” Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20, 129 S.
13 Ct. 365, 172 L. Ed. 2d 249 (2008) (citations omitted). Alternatively, where there
14 are merely “serious questions going to the merits,” the moving party may still
15 obtain a preliminary injunction where the balance of hardships “tips sharply” in the
16 moving party’s favor, and where the moving party also shows a likelihood of
17 irreparable injury and that an injunction is in the public interest. Alliance for the
18 Wild Rockies v. Cottrell, 632 F.3d 1127, 1135 (9th Cir. 2011).
19
Where the moving party has not made the minimum showing of irreparable
20 injury, it is not necessary for the court to decide whether the movant is likely to
21 succeed on the merits. Oakland Tribune, Inc. v. Chronicle Publ’g Co., 762 F.2d
22 1374, 1378 (9th Cir. 1985). Likewise, if the moving party “fails to show that he
23 has some chance on the merits, that ends the matter.” Developmental Servs.
24 Network v. Douglas, 666 F.3d 540, 544 (9th Cir. 2011) (citation omitted).
25

“The court may issue a temporary restraining order without written or oral

26 notice to the adverse party or its attorney only if: (A) specific facts in an affidavit
27 or a verified complaint clearly show that immediate and irreparable injury, loss, or
28
6

qiase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 7 of 14 Page ID #:147|9

1

damage will result to the movant before the adverse party can be heard in

2

opposition; and (B) the movant’s attorney certifies in writing any efforts made to

3

give notice and the reasons it should not be required.” Fed. R. Civ. P. 65(b)(1).

4

The Motion for a preliminary injunction, filed concurrently with the Petition

5

on September 24, 2019, asks the Court to stay petitioner’s state criminal case to

6

allow this Court time to intervene in the state criminal case. Petitioner argues he

7

faces irreparable harm if the Court does not intervene in his state case, but the only

8

harm he in fact faces is the normal harm any criminal defendant faces if a court

9

rules against him and he is convicted. Such harm may be addressed through the

10
11

normal process: an appeal.
Moreover, even if the harm petitioner faced were irreparable, petitioner has

12

not shown he is likely to succeed on the merits. In fact, petitioner has no chance to

13

succeed on the merits of the instant Petition because, as discussed below, he has

14

not raised a cognizable claim for habeas relief, and the Younger Abstention

15

Doctrine applies. As such, petitioner is not entitled to a preliminary injunction.

16

Petitioner’s Request for a TRO and Emergency Motion for a TRO and

17

preliminary injunction filed on November 26, 2019 and December 9, 2019 again

18

ask the Court to stay his state criminal case and inquire into problems with receipt

19

of his legal mail at TTCF. Petitioner claims Deputy Vasquez has intentionally

20

interfered with his legal mail by making petitioner wait more than a month after his

21

legal mail arrives at TTCF in order to give it to him. Specifically, petitioner argues

22

Vasquez’s delay in giving petitioner his legal mail has caused him to miss court

23

deadlines and resulted in the denial of his petition for review in the California

24

Supreme Court on October 21, 2019. See Mtn., Ex. 10. Petitioner further contends

25

that he suffers irreparable harm because he filed a Marsden motion on November

26

12, 2019 and he will not be able to vigorously pursue his claim because Vasquez

27

will give it to him a month after the deadline has passed.

28
7

CJlase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 8 of 14 Page ID #:1480

The Court has already addressed petitioner’s request to stay his state case

1
2

and none of petitioner’s allegations suggest he faces a likelihood of irreparable

3

harm from Deputy Vasquez absent court intervention. Petitioner fails to allege

4

facts indicating the delayed mail is anything more than ordinary, albeit frustrating,

5

inconveniences of life in the jail system at TTCF. Although petitioner alleges he

6

suffered harm from the delayed mail that resulted in his October 21, 2019 writ

7

denial, he has not alleged any facts to support his conclusory assertions that the

8

writ was denied due to delays in the mail or that Deputy Vasquez did anything to

9

interfere with his Marsden motion such that he is unable to vigorously pursue his

10

claim. Additionally, where petitioner has complained about delayed mail in the

11

past, it appears that TTCF subsequently resolved the issue without court

12

intervention. See case number CV 16-6509-DOC (SP), docket no. 53. As such,

13

petitioner fails to show that he is likely to suffer irreparable harm due to delays in

14

receiving his mail. And again, he will not succeed on the merits in this case.

15

In sum, because petitioner has not shown either a likelihood of success on

16

the merits or that he is likely to suffer irreparable harm if he does not receive the

17

injunctive relief he seeks, his Motion for a preliminary injunction and requests for

18

a TRO will be denied.

19

B.

20

The Petition Does Not Raise a Cognizable Claim for Habeas Relief
Section 2254 permits a federal court to entertain a habeas petition by a

21

prisoner in state custody “only on the ground that he is in custody in violation of

22

the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a).

23

“[T]he essence of habeas corpus is an attack by a person in state custody upon the

24

legality of that custody, and ... the traditional function of the writ is to secure

25

release from illegal custody.” Preiser v. Rodriguez, 411 U.S. 475, 484, 93 S. Ct.

26

1827, 36 L. Ed. 2d 439 (1973); Burnett v. Lampert, 432 F. 3d 996, 999 (9th Cir.

27

2005). Here, this Court lacks jurisdiction to entertain the instant Petition because

28
8

qiase 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 9 of 14 Page ID #:148|1

1

petitioner is not claiming that he is in custody in violation of the Constitution or

2

other federal law. See Baily v. Hill, 599 F.3d 976, 979-82 (9th Cir. 2010)

3

(§ 2254’s jurisdictional requirement includes that the habeas challenge be to the

4

lawfulness of petitioner’s custody). Instead, he is challenging the tactics used in

5

the investigation of his criminal case and by the prosecutor in the litigation and

6

trial of his criminal case, as well as some rulings by the trial court in that case.

7

This is not a cognizable habeas corpus claim over which this Court has jurisdiction.
A federal court has the discretion to construe a mislabeled habeas corpus

8

9

petition as a civil rights action and permit the action to proceed, such as when the

10

petition seeks relief from the conditions of confinement. See Wilwording v.

11

Swenson, 404 U.S. 249, 251, 92 S. Ct. 407, 30 L. Ed. 2d 418 (1971) (per curiam)

12

(holding that where a habeas corpus petition presents § 1983 claims challenging

13

conditions of confinement, the petition should be construed as a civil rights action),

14

superseded by statute on other grounds as recognized in Woodford v. Ngo, 548

15

U.S. 81, 84, 126 S. Ct. 2378, 165 L. Ed. 2d 368 (2006). But as set forth above,

16 petitioner previously sought to raise similar claims by filing civil rights complaints,
17

and those complaints were dismissed as prohibited by the Younger Abstention

18

Doctrine. As discussed below, Younger also precludes this Court from acting in

19

the instant case. Consequently, construing the instant habeas Petition as a civil

20

rights complaint would be futile.

21

C.

22

This Court Must Abstain Under Younger
The Younger Abstention Doctrine prohibits federal courts from staying or

23

enjoining pending state criminal court proceedings or “considering a

24

pre-conviction habeas petition that seeks preemptively to litigate an affirmative

25

constitutional defense unless the petitioner can demonstrate that extraordinary

26

circumstances warrant federal intervention.” Brown v. Ahern, 676 F.3d 899, 901

27

(9th Cir. 2012) (internal quotation marks omitted)'; see Younger v. Harris, 401 U.S.

28

9

Clkse 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 10 of 14 Page ID #:14fi2

1

37. Younger abstention is appropriate when: (1) the state court proceedings are

2

ongoing; (2) the proceedings implicate important state interests; and (3) the state

3

proceedings provide an adequate opportunity to raise the constitutional claims.

4

Middlesex County Ethics Comm. v. Garden State Bar Ass ’n, 457 U.S. 423, 432,

5

102 S. Ct. 2515, 73 L. Ed. 2d 116 (1982); Baffert v. Cal. Horse RacingBd., 332

6

F.3d 613, 617 (9th Cir. 2003).

7

The first two Middlesex elements for the Younger Abstention Doctrine to be

8

invoked are plainly present here. There is an ongoing state proceeding, i.e., the

9

criminal case against petitioner. And the criminal proceeding implicates important

10

state interests because it involves an alleged violation of state criminal law that is

11

being adjudicated in state court. See Pennzoil Co. v. Texaco, Inc., 481 U.S. 1,13,

12

107 S. Ct. 1519, 95 L. Ed. 2d 1 (1987) (enforcement of state court judgments and

13

orders implicates important state interests); see also People ofState of Cal. v.

14 Mesa, 813 F.2d 960, 966 (9th Cir. 1987) (“A [state’s] ability to protect its citizens
15

from violence and other breaches of the peace through enforcement of criminal

16

laws is the centermost pillar of sovereignty.”).

17

Petitioner’s arguments and assertions in the Petition implicitly challenge the

18

third Middlesex element, in that he maintains he faces irreparable injury because

19

his federal civil rights are being violated in the prosecution of him. Petitioner

20

claims he has no forum to present his claims, but that plainly is not the case. For

21

example, the prosecutorial misconduct he alleges may be challenged before and

22

during the state criminal trial, and in any appeal he might bring if he is convicted.

23

It is thus apparent that, contrary to petitioner’s argument, the state court criminal

24

proceedings have provided and will provide an adequate opportunity for petitioner

25

to litigate his constitutional claims by way of a suppression motion or other

26

challenges to the evidence. And if petitioner is convicted, he may raise the claims

27

on appeal. “The ‘adequate opportunity’ prong of Younger . .. requires only the

28
10

Cftse 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 11 of 14 PagelD#:14S3

1

absence of ‘procedural bars’ to raising a federal claim in the state proceedings.”

2

Commc'ns Telesystems Int’l v. Cal. Pub. Util. Comm ’n, 196 F.3d 1011, 1020 (9th

3

Cir. 1999). Petitioner here faces no such procedural bars.

4

Petitioner also argues he faces irreparable injury due to being retried in

5

violation of the Double Jeopardy Clause, and as such the Younger Abstention

6

Doctrine is inapplicable. See Mannes v. Gillespie, 967 F.2d 1310, 1312 (9th Cir.

7

1992) (“A claim that a state prosecution will violate the Double Jeopardy Clause

8

presents an exception to the general rule of Younger . . ..”); Auvaa v. City of

9

Taylorsville, 506 F. Supp. 2d 903, 915 (D. Utah 2007) (“‘ Younger abstention is

10

unwarranted where a criminal accused presents a colorable claim that a

11

forthcoming second state trial will constitute a violation of her double jeopardy

12

rights’”) (quoting Walckv. Edmondson, 472 F.3d 1227, 1234 (10th Cir. 2007)).

13

“Because full vindication of the right [against double jeopardy] necessarily

14

requires intervention before trial, federal courts will entertain pretrial habeas

15

petitions that raise a colorable claim of double jeopardy.” Mannes, 967 F.2d at

16

1312 (citations omitted).

17

Petitioner here does not, however, raise a colorable claim of double

18 jeopardy. Petitioner is not claiming that he is being retried on a claim for which he
19

was acquitted. Instead, he is arguing that he cannot be tried under an aiding and

20

abetting theory where the principal he is alleged to have aided has been acquitted.

21

However, “[n]othing in the Double Jeopardy Clause or the Due Process Clause

22

forecloses putting petitioner on trial as an aider and abettor simply because another

23

jury has determined that his principal was not guilty of the offenses charged.”

24

Standefer v. U.S., 447 U.S. 10, 22 n.16, 100 S. Ct. 1999, 64 L. Ed. 2d 689 (1980).

25

Thus, petitioner fails to raise a colorable claim of double jeopardy since he may be

26

tried as an aider and abettor even though the named principal he was alleged to

27

have aided was acquitted of the chargee! offense.

28
11

C&se 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 12 of 14 PagelD#:14S4

1

Moreover, the state court records plainly reflect that the jury in petitioner’s

2

first trial was unable to reach a verdict on the lesser included offense of second

3

degree murder, and a mistrial on that charge was declared. “It is well settled that

4

retrial of an accused after a mistrial because the jury is unable to agree is not a

5

denial of the constitutional right against double jeopardy.” Forsbergv. U.S., 351

6

F.2d 242, 244 (9th Cir. 1965) (citing Downum v. U.S., 372 U.S. 734, 735, 83 S. Ct.

7

1033, 10 L. Ed. 2d 100 (1963)). In Forsberg, as here, the jury deadlocked on the

8

lesser offense and acquitted on the greater offense, and the court found double

9 jeopardy was not implicated by retrial on the lesser offense. Id. at 248; accord
10

U.S. v. Jose, 425 F.3d 1237, 1243 (9th Cir. 2005) (retrial on one offense following

11

acquittal on related offense “does not violate the Double Jeopardy Clause

12

notwithstanding that jeopardy has terminated on, what is for double jeopardy

13

purposes, the ‘same’ offense - its greater or lesser included concomitant”).

14

For this Court to grant the injunctive relief petitioner requests, or even to

15

allow this case to proceed, would amount to interfering with the investigation and

16

trial of petitioner’s state criminal case. There are no “extraordinary circumstances”

17

present here that would warrant federal intervention. The Ninth Circuit found

18

under Perez v. Ledesma, 401 U.S. 82, 91 S. Ct. 674, 27 L. Ed. 2d 701 (1971), the

19

Supreme Court has “limited the category of ‘extraordinary circumstances’ to

20

encompass only ‘cases of proven harassment or prosecutions undertaken by state

21

officials in bad faith without hope of obtaining a valid conviction,’ or where

22

‘irreparable injury can be shown.’” Brown, 616 F.3d at 901 (citing Carden v. State

23

of Montana, 626 F.2d 82, 84 (9th Cir. 1980)); see Juidice v. Vail, 430 U.S. 327,

24

338, 97 S. Ct. 1211, 51 L. Ed. 2d 376 (1977). Petitioner’s allegations do not

25

indicate he is being prosecuted without reasonable hope of conviction. Indeed, a

26 jury hung on a charge against him, and he will be retried on that and another
27

charge. Nor, as discussed above, does petitioner allege he faces irreparable injury

28
12

Cfese 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 13 of 14 Page ID #:1485

1

“other than that incidental to every criminal proceeding brought lawfully and in

2

good faith.” Younger, 401 U.S. at 47 (internal quotation marks omitted) (quoting

3

Douglas v. City of Jeannette, 319 U.S. 157, 164, 63 S. Ct. 877, 87 L. Ed. 1324

4

(1943))! Petitioner here simply disagrees with the legality of the investigation

5

conducted by law enforcement, but that is a matter he can raise in his state case.

6

Petitioner’s arguments do not demonstrate extraordinary circumstances that

7

warrant this Court’s intervention in the state court proceedings.
In sum, this Court lacks jurisdiction over the Petition because it does not

8
9

raise a cognizable claim for habeas relief. But even if the Petition were cognizable,

10

this Court would need to abstain under Younger.

11

//

12

//

13

//

14

//

15

//

16

//

17

//

18

//

19

//

20

//

21

//

22

//

23

//

24

//

25

//

26

//

27

28
13

C

ise 2:19-cv-08259-DOC-SP Document 17 Filed 12/11/19 Page 14 of 14 Page ID #:1486

l

y.

2

CONCLUSION

3

IT IS THEREFORE ORDERED that: (1) petitioner’s Motion for

4

Preliminary Injunction (docket no. 1) is DENIED; (2) petitioner’s Request for a

5

Temporary Restraining Order and Preliminary Injunction (docket nos. 14, 15) is

6 DENIED; (3) petitioner’s Emergency Motion for a Temporary Restraining Order
7

and Preliminary Injunction (docket no. 16) is DENIED; and (4) Judgment be

8

entered summarily dismissing the Petition and this action with prejudice.

9
10 DATED: December 11

, 2019

/jidfotd

11
12

HONORABLE DAVID O. CARTER
UNITED STATES DISTRICT JUDGE

13
14 Presented by:
15
16
17

18
19
20

(ZvrfMJ

SHERI PYM
UNITED STATES MAGISTRATE JUDGE

21
22
23
24
25
26
27
28
14

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 11 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MICHAEL R. SPENGLER,
Petitioner-Appellant,
v.

ALEX VILLANUEVA,

No.

20-55080

D.C. No. 2:19-cv-08259-DOC-SP
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

TROTT and N.R. SMITH, Circuit Judges.

Appellant’s motion for reconsideration en banc (Docket Entry No. 9) is
denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

Office of the Clerk
United States Court of Appeals for the Ninth Circuit
Post Office Box 193939
San Francisco, California 94119-3939
415-355-8000
Molly C. Dwyer
Clerk of Court

January 23, 2020

k

20-55080
2:19-cv-08259-DOC-SP
Michael Spengler v. Alex Villanueva

No.:
D.C.No.:
Short Title:

Dear Appellant
The Clerk's Office of the United States Court of Appeals for the Ninth Circuit has
received a copy of your notice of appeal and/or request for a certificate of
appealability.
A briefing schedule will not be set until the court determines whether a
certificate of appealability should issue.
Absent an emergency, all subsequent filings in this matter will be referred to the
panel assigned to consider whether or not to grant the certificate of appealability.
All subsequent letters and requests for information regarding this matter will be
added to your file to be considered at the same time the cause is brought before the
court.
The U.S. Court of Appeals docket number shown above has been assigned to this
case. You must indicate this Court of Appeals docket number whenever you
communicate with this court regarding this case.

.srv?.
.
Vjv. i

/
cy

v -

/

:

~ I

%

